  Office of Inspector General
      Audit Report



REDUCTIONS IN COMPETITION INCREASE
    AIRLINE FLIGHT DELAYS AND
          CANCELLATIONS
       Federal Aviation Administration

        Report Number: CR-2014-040
               April 23, 2014
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Reductions in Competition Increase                                        Date:    April 23, 2014
           Airline Flight Delays and Cancellations
           Federal Aviation Administration
           Report No. CR-2014-040

  From:    Mitchell Behm                                                                  Reply to
                                                                                          Attn. of:   JA-30
           Assistant Inspector General for Surface
           Transportation Audits 1

    To:    Federal Aviation Administrator

           Since 2005, the U.S. airline industry’s service quality—airlines’ on-time
           performance and cancellation rates—has varied greatly. The percentage of late
           domestic flights has fluctuated between 11 and 33 percent per month, while the
           rate of cancellations has varied from under 1 percent to over 5 percent per month.
           Understanding the sources of these variations is important because airline delays
           and cancellations have affected a large number of flights. For example, 1 percent
           of domestic flights equaled 60,968 flights in 2012. 2

           There has also been considerable industry consolidation since 2005 with mergers
           between Delta and Northwest in 2008, United and Continental in 2010, and
           American and US Airways in late 2013. Public concerns over a possible
           relationship between the quality of airline service and industry consolidation led to
           congressional hearings and requests to the accountability community to review
           these issues. 3 Section 406 of the FAA Modernization and Reform Act of 2012
           required our office to assess the effects of limited airline service options on the
           frequency of delays and cancellations. 4 This report presents the results of our

           1
             The Economics Group, which conducts analyses across all modes and produced this audit, is situated in the Surface
           Transportation Group as of April 1, 2014.
           2
             The figures in this paragraph are derived using the Bureau of Transportation Statistics On-time Performance database.
           Coverage limitations of the available data on airline delays and cancellations are discussed in More Comprehensive
           Data Are Needed to Better Understand the Nation’s Flight Delays and Their Causes (OIG Report No. AV-2014-016),
           December 18, 2013. OIG reports are available on our Web site: http://www.oig.dot.gov.
           3
             The Subcommittee on Antitrust, Competition Policy, and Consumer Rights, Senate Committee on the Judiciary, and
           the Ranking Member of Subcommittee on Aviation, House Committee on Transportation and Infrastructure requested
           that the General Accountability Office investigate airline competition issues.
           4
             Pub. L. No. 112-95 §406 (2012).
                                                                                                                      2


analyses of the relationship between competition, measured at the individual route
level, and airline service quality, also measured at the individual route level.

Our objective was to determine whether limited competition affects flight delays
and cancellations. Specifically, we determined whether (1) reductions in
competition affected the percentage of late flights and the length of flight delays,
(2) reductions in competition affected flight cancellation rates, and (3) the effects
of reduced competition on airline service quality depended upon the initial level of
competition.

We conducted our audit work from October 2012 through March 2014, in
accordance with generally accepted Government auditing standards. To conduct
our work, we collected data on 2,530 domestic routes 5 flown by 20 airlines 6 from
the fourth quarter of calendar year 2005 through the fourth quarter of calendar
year 2012. We then constructed econometric models to estimate the effect of
competition on the length of arrival delay, the percentage of total flights that were
late, and the percentage of total flights that were cancelled. For additional
information on our scope and methodology, see exhibit A.

RESULTS IN BRIEF

Our study found that variation in airline service quality related substantially to
changes in the level of competition within airline markets. Specifically, when
airline markets became less competitive both the average length of flight delays
and percentage of late flights increased. The effects of reduced competition on the
average length of flight delay were statistically significant and sizeable. We
estimated that when a market’s service options shrank from three airlines to two, 7
the length of delays in the market increased by 25.3 percent. However, the impact
of reduced competition on the percentage of late flights was only minimally
statistically significant and small in size.

We also found that when competition declined, cancellation rates increased to an
extent that was both highly statistically significant and substantial in size. We
estimated that a market that went from being served by three airlines to two
experienced nearly a 7 percent increase in the flight cancellation rate due to the
loss of competition.




5
  This excludes Alaska, Hawaii and U.S. Territories.
6
  This includes 15 major carriers and 5 national carriers. Major carriers have annual revenues over $1 billion. National
carriers have annual revenues between $100 million to $1 billion.
7
  When referenced in this manner, airlines are assumed to be of equal size.
                                                                                                                       3


Finally, we found that the degree to which competition affected delay lengths and
cancellations depended on initial levels of market competition. 8 We estimated that
when a market started out fairly competitive, reduced competition significantly
increased the lengths of delays but did not substantially affect delay lengths in a
market that started out with little initial competition. Conversely, following a
similar reduction in competition, we estimated that passengers in markets initially
served by few airlines experienced a greater increase in the cancellation rate than
passengers in markets initially served by many airlines.

BACKGROUND

We performed both descriptive and statistical modeling analyses to examine the
relationship between service quality and market competition. These two types of
analyses differed as follows.

    • Descriptive analyses – These analyses took into account the level of
      competition but could not separate its effects from those of other factors, such
      as weather and labor disputes, which could also affect service quality.

    • Statistical analyses – These analyses isolated the effects of competition on
      delays and cancellation rates from the effects of other factors affecting airline
      service quality—such as weather and congestion—and tested them for
      statistical significance. 9

We constructed a sample of over 32.2 million flights with flight performance
information from 70 U.S. airports. 10 We used this sample to construct econometric
models of airline performance. Our modeling served as the basis for our statistical
analyses, allowing us to control for factors other than the level of competition that
likely affect airline service quality. 11 We constructed separate models for three
service quality measures: average minutes of arrival delay; 12 percentage of total
flights that were late; 13 and percentage of total flights that were cancelled.



8
  The effects of reduced competition on the frequency of late flights were the same at all levels of competition and only
minimally statistically significant overall.
9
  A relationship or effect is statistically significant if it is unlikely to have occurred through random chance. The less
likely it is that the relationship or effect occurred though random chance, the more statistically significant is the
relationship or effect. For further detail on our testing for statistical significance, see exhibit B.
10
   Exhibit B details our sample construction process. It was primarily determined by the availability of data on the
factors to be included in our analysis, in particular airport congestion and weather.
11
   Our control variables included measures of weather conditions, profitability, labor actions, congestion, and runway
expansions (see exhibits A and B).
12
   We measured the length of delay considering both positive minutes of delay as well as negative minutes of delay to
incorporate all information on timeliness of all flights in our estimation.
13
   We considered a flight late if it arrived 15 minutes or more after the scheduled arrival time.
                                                                                                                     4


We measured competition by constructing a Hirschman-Herfindahl index (HHI), a
commonly used measure of market competition based on the distribution of
market revenue shares. An HHI ranges from 0 to 1. The index approaches zero
when a market is served by a large number of airlines of relatively equal size and
reaches one when a market is controlled by a single airline. The index increases
both as the number of airlines in a market decreases and as disparity in the size of
those airlines increases.

We defined an airline market as a pair of origin and destination airports. The
definition includes direct flights 14 and flights requiring one connection, since
flights with one connection are often considered reasonable substitutes for direct
flights. The definition covers more than 95 percent of the passengers 15 during the
sample period. We generated an alternative measure of market competition based
only on direct flights for use in checking the robustness of our results.

Based on our measure of the level of competitiveness, we characterize the U.S.
domestic airline industry as concentrated, with most markets dominated by two
carriers. Thirteen percent of the routes in our sample were monopoly routes
dominated by one carrier (HHI of 0.9 to 1.0). Forty-two percent were concentrated
routes dominated by two carriers (HHI of 0.5 to 0.9). We categorized the rest of
the markets (44 percent) as competitive routes (HHI of 0.0 to 0.5).16 Even though
we considered these routes competitive, the competitiveness was relative because,
even though there were more than two carriers, many of these routes were
dominated by only three airlines.

DELAYS INCREASED WHEN COMPETITION DECREASED

When competition decreased, both the average length of flight delays and
percentage of total flights that were late increased. The relationship of reduced
competition to increases in the average length of flight delays was substantial and
statistically significant. There is less statistical support to infer that reduced
competition increased the percentage of late flights.




14
   Direct flight refers to non-stop flights and flights with one stop but no change of aircraft. We use this definition
because the data in Bureau of Transportation Statistics’ Data and Airline Origin and Destination survey (DB1B) does
not support distinguishing between non-stop flights and flights with one stop but no change of plane. Most passengers
in DB1B are on direct flights.
15
   Less than 5 percent of the passengers in our sample had trips with two or more stops.
16
   Rounding error prevents these percentages from adding up to 100.
                                                                                 5


The Average Length of Flight Delays Increased With Reduced
Competition

The average length of flight delays on a route increased as the amount of
competition decreased. In our descriptive analyses, we plotted the average length
of delay in our sample at each level of our measure of competition. The
relationship was most apparent where competition was highest (HHI of 0.1 to 0.3).
Across lower levels of competition (HHI of 0.3 to 1.0), there was no apparent
relationship between competition and the delay length. See figure 1 for details.

Figure 1. Competition and Average Minutes of Delay




Source: OIG descriptive analysis

Our statistical analyses revealed that the relationship between competition and
average minutes of delay was highly statistically significant, 17 and the impact of
competition on delay length was sizeable. For example, in our sample, a passenger
in a market served by three airlines experienced, on average, a delay of 4 minutes
and 40 seconds. However, we estimated that when the number of airlines serving a
market decreased from three airlines to two, the reduction in competition increased
that average delay by 1 minute and 11 seconds, or 25.3 percent (see figure 2).




17
     It was significant at the 1 percent level.
                                                                                       6


Figure 2. The Impact of Reduced Competition on Delay Length18




Source: OIG statistical analysis

There Was Little Evidence of a Link Between Competition and the
Frequency of Late Flights

There was little evidence of a link between competition and the frequency of late
flights. In our descriptive analysis, we plotted airline competition against the
percentage of total flights, and found that the results did not show a strong
relationship (see figure 3). The percentage of total flights that were late increased
slightly when the competition index was low (HHI from 0.1 to 0.3), only to
decrease later (HHI from 0.3 to 1.0).




18
     Figures 2, 4, 6, 7 and 8 depict impacts estimated using our econometric models.
                                                                                  7


Figure 3. Competition and the Percentage of Late Flights




Source: OIG descriptive analysis

According to our statistical analysis, the percentage of late flights increased when
competition decreased. However, this relationship was only minimally statistically
significant. 19 Furthermore, the effect of a reduction in competition was minor. For
example, the average percentage of flights that were late in markets served by 3
airlines was 20.78 percent. When service was reduced to two airlines, we
estimated that the average frequency of late flights increased to 20.91 percent—
less than 1 percent (see figure 4).




19
     It was only significant at the 10 percent level.
                                                                                 8


Figure 4. The Impact of Reduced Competition on Percentage of
Late Flights




Source: OIG statistical analysis


THE PERCENTAGE OF CANCELLED FLIGHTS INCREASED AS
COMPETITION DECREASED

When route competition fell, cancellation rates increased. The descriptive analysis
graph (see figure 5) indicated that the overall cancellation rate increased as
competition decreased, even though for part of the graph—from an HHI of 0.4 to
0.9—airline competition and cancellations appeared to have no relationship.
                                                                                                                   9


Figure 5. Competition and the Cancellation Rate




Source: OIG descriptive analysis

According to our statistical analysis, the impact of competition on cancellation
rates was large and highly statistically significant. 20 For example, markets served
by three airlines experienced average cancellation rates of 1.46 percent. We
estimated the cancellation rates in markets with reductions in service from three
airlines to two reached 1.56 percent—close to a 7 percent increase—due to the
loss of competition (see figure 6). 21




20
  It was significant at the 1 percent level.
21
  These small percentages translate into large numbers of flights. In our sample, roughly 1.6 percent of flights were
cancelled, which translated into more than 70,000 cancelled flights annually on average.
                                                                                      10


Figure 6. The Impact of Reduced Competition on Cancellation
Rates




Source: OIG statistical analysis

EFFECTS OF REDUCED COMPETITION ON AIRLINE SERVICE
QUALITY DEPENDED ON INITIAL COMPETITION LEVELS 22

The degree to which reduced competition affected delay lengths and cancellation
rates depended on initial competition levels. We estimated that reduced
competition had a marked increase on lengths of delays in a market initially served
by many airlines but did not substantially affect delays in markets that started out
with a low level of competition. Conversely, we estimated that when a market
started with a high level of competition, a reduction in competition did not
substantially increase the rate of flight cancellations but did increase them in
markets with initially limited service options.

The Largest Increases in Average Delay Lengths Occurred in Markets
with Reductions in Initially High Levels of Competition

When a market was initially served by several carriers, we estimated that lengths
of delays increased substantially with reduced competition. However, we also
estimated that subsequent reductions in competition had less impact. For example,
we estimated that when the number of airlines serving a market went from three to
two, the market experienced a 25.3 percent increase in average minutes of delay.
The increase experienced in a market that went from two airlines to one was not
much larger, 26.5 percent, even though the latter change represents a substantially
larger competition reduction as measured by the HHI–0.500 versus 0.167. 23 As
illustrated in figure 7, when the HHI increased by 0.1, the estimated effect on a

22
     All the results reported in this section derive from our statistical analysis.
23
     These HHI change estimates assume all airlines split the market equally.
                                                                               11


market’s average minutes of delay varies from approximately 61 seconds to as
little as 5 seconds, with the smaller impacts associated with the less competitive
markets.

Figure 7. Estimated Relationship Between Competition and
Minutes of Delay




Source: OIG statistical analysis

The Largest Increases in Flight Cancellation Rates Occurred In
Markets with Little Initial Competition

In a market with many airlines, we estimated that reduced competition had less
impact on the percentage of total cancelled flights than a similar reduction in a
market with little initial competition. For example, as seen in figure 8, we
estimated that a 0.1 increase in the HHI was associated with increments to the
cancellation rate from .053 to .069 percent, with the larger increases associated
with the less competitive markets. Consequently, we estimated that the largest
increase in cancellation rates occurred in markets that became monopolies.
                                                                                 12


Figure 8. Estimated Relationship Between Competition and
Cancellation Rates




Source: OIG statistical analysis


CONCLUDING OBSERVATIONS

Through our statistical analysis, we determined that variation in airline service
quality related substantially to changes in the level of competition within airline
markets. Specifically, reduced airline competition increased both the length of
delays in some markets and the number of flight cancellations in others. Further,
passengers in historically competitive markets experienced a substantial increase
in the length of flight delays as competition declined. On the other hand,
passengers in historically less competitive markets experienced a larger increase in
cancellation rates following a reduction in competition. This type of economic
analysis serves to inform FAA and the Department of Transportation about the
impacts of reduced competition on airline service quality, and can be used as
information in future planning to advance an efficient air traffic system for the
traveling public.
                                                                                 13


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On March 20, 2014, we provided copies of this draft report to FAA and the Office
of the Secretary. Both informed us that they had no comments on this independent
analysis. No actions are required.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-9970, or Betty Krier, Program Director, at
(202) 366-1422.

                                         #

cc: Assistant Secretary for Aviation and International Affairs
    FAA Deputy Administrator
    DOT Audit Liaison, M1
    FAA Audit Liaison, AAE-100
                                                                                                               14


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our work from October 2012 through March 2014, in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings based on our audit objectives.

The FAA Modernization and Reform Act of 2012 directed our office to assess the
effect that limited air carrier service options have on the frequency of delays and
cancellations. Our audit objective was to determine whether limited competition
has substantially affected flight delays and cancellations. We defined competition
using a standard index based on airlines’ market shares. We defined substantially
affect as having a statistically and economically significant impact.

To conduct our work, we performed an econometric analysis using airline data on
2,530 domestic directional airport-pairs from the fourth quarter of 2005 through
the fourth quarter of 2012. Our sample contained 20 airlines, 15 of which were
major carriers. 24 The Bureau of Transportation Statistics (BTS) defines a major
carrier as one with annual revenues in excess of $1 billion. The remaining airlines
were national carriers, 25 which BTS defines as having annual revenues between
$100 million and $1 billion.

We began construction of our sample by combining the on-time performance data
from the Airline Service Quality Performance (ASQP) database and the Data and
Airline Origin and Destination survey (DB1B) information, both of which BTS
maintains. DB1B is a quarterly 10 percent sample of all airline tickets issued by
reporting carriers. 26 We measured competition by constructing HHIs based on data
from DB1B. We defined an airline market as a directional origin and destination
airport-pair. We used BTS’s Air Carrier Statistics Database (T-100) to identify
service type. The T-100 data also included data on aircraft characteristics and load
factors, defined as the monthly average ratio of total passengers and seats. We
used weather data from the National Climatic Data Center. We obtained airport
capacity utilization data from the FAA’s Aviation Performance Metrics (APM)
Airport Efficiency System. 27


24
   These were: ATA, AirTran, Alaska, American, American Eagle, Comair, Continental, Delta, Frontier, JetBlue,
Northwest, SkyWest, Southwest, US Airways, and United.
25
   These were: Atlantic Southeast, ExpressJet, Mesa, Pinnacle, and Virgin America.
26
   All airlines operating any aircraft having over 60 seats are required to report.
27
   The capacity utilization data was based on FAA’s “called rates,” which are the maximum hourly number of arriving
and departing flights an airport can safely handle as determined by air traffic control given existing operational
conditions, such as wind direction and weather. See Exhibit B for further information.


Exhibit A. Scope and Methodology
                                                                                                      15


To ensure sufficient time series variation for statistical estimation, we omitted
route-carrier groups with data spanning less than one year. We also excluded
observations with either an origin or destination outside the continental U.S. and
flights that arrived more than one hour early or six hours late. We excluded any
route that reported less than eight flights per month. The sample was substantially
reduced after merging with airport capacity utilization data, because that data is
only available for 77 large airports, and only 73 of these are within the continental
U.S. With 2,530 directional airport-pairs, 5,481 route-carrier combinations, and
298,389 monthly observations (298,523 for our cancellation analyses), our final
sample encompassed approximately 71 percent of the total number of flights
during the sample period in the ASQP database. 28

We built three econometric models to investigate the effect of airline competition
on flight delays and cancellations. The dependent variables, or measures whose
variation we were seeking to explain, were minutes of arrival delays, percentage of
late flights, and percentage of cancelled flights. We also developed a list of
factors, or control variables, to account or control for variation in the airline
service measures that was not associated with the degree of competition. We
developed the list of control variables in part from interviews with the vice
president/chief economist at Airlines for America and an independent airline
expert. We also drew from economics literature on factors significantly affecting
airline service quality. The list of control variables was the same for all three
models.

We categorized our control variables into weather factors (heavy rain and freezing
rain), profitability measure (load factor), and route-carrier specific covariates.
Examples of route-carrier controls included monthly departures in various time
windows, congestion measures, and aircraft types. Our congestion measures were
unique because they were route-carrier specific based on our construction and
accessibility to FAA airport capacity utilization data. The variable of focus was
the competition measure, which was an HHI generated with airlines’ shares of
market revenues. To check the robustness of our findings, we also measured
competition using shares of market passengers. The results changed very little
with this alternative definition. Sensitivity analyses are detailed in Exhibit B.




28
  More Comprehensive Data Are Needed To Better Understand the Nation’s Flight Delays and Their Causes, OIG
Report Number AV-2014-016,,December 18, 2013, discusses the coverage limitations of this data.


Exhibit A. Scope and Methodology
                                                                                                                16


EXHIBIT B. DETAILED SCOPE AND METHODOLOGY

This exhibit describes our scope and methodology in technical detail. It is
organized as follows. First, we describe the sources, construction, and
characteristics of our estimation sample. Second, we detail our model
specifications and estimation approaches. The last section discusses our results
and sensitivity analyses.

Data Sources and the Estimation Sample

We constructed our sample using various data sources. All data was converted into
monthly averages and covered the period of 2005:4Q-2012:4Q. Flight delay,
measured by minutes of arrival delay, and cancellation data came from BTS’s
ASQP database, which contains flight-level performance data for non-stop
domestic flights by the larger air carriers. Our sample contains 20 airlines. Fifteen
of these are major carriers, defined by BTS as having annual revenues in excess of
$1 billion. 29 The remaining airlines are national carriers, defined as having annual
revenues between $100 million and $1 billion. 30

To ensure sufficient time series variation for estimating each panel, we omitted
route-carrier groups with data spanning less than one year. Furthermore, we
excluded observations with either an origin or destination outside the continental
U.S. and for flights that arrived more than one hour early or six hours late. We
also ignored any route that reported less than eight flights per month. To ensure
our sample captured scheduled passenger service exclusively, we used
performance data in combination with BTS’s T-100 database to identify service
type. The T-100 data also included data on aircraft characteristics and load factors,
defined as the monthly average ratio of total passengers and seats.

We constructed HHIs, which we used to gauge market competition, based on data
from BTS’s DB1B database. 31 Our analyses focused on an HHI based on airlines’
shares of market revenues. 32 We defined an airline “market” as a directional origin
and destination airport-pair. Since less than 5 percent of the passengers in our
sample used flights with two or more stops, we only included direct flights and



29
   They are: ATA, AirTran, Alaska, America West, American, American Eagle, Comair, Continental, Delta, Frontier,
JetBlue, Northwest, SkyWest, Southwest, US Airways, and United.
30
   They are: Atlantic Southeast, ExpressJet, Mesa, Pinnacle, and Virgin America.
31
   Data Base Products was the provider of our DB1B data. They identify and eliminate a number of data errors, and
consolidate the data into a more manageable format.
32
   We also constructed HHIs based on shares of market passengers, shares of non-stop service revenues, and shares of
market revenues from all flights connecting metropolitan statistical areas rather than airport-pairs. We used these
additional HHIs to conduct sensitivity analyses.


Exhibit B. Detailed Scope and Methodology
                                                                                                                     17


flights requiring one connection as competitors. 33 The market definition is
directional so that Washington Dulles (IAD) to Raleigh–Durham International
(RDU) is considered to be a different route or airport-pair than RDU to IAD. We
chose the directional definition because our measures of service quality often
differ for opposite directions on the same route.

We formed our baseline sample by combining the on-time performance data and
DB1B-based information. 34 This produced 5,351 directional airport-pairs. The
sample size was somewhat reduced after merging with weather data from the
National Climatic Data Center because weather information was unavailable for
routes where either endpoint airport does not belong to a Metropolitan Statistical
Area. The sample was substantially reduced after merging with airport capacity
utilization data from the FAA’s APM Airport Efficiency System, as that data is
only available for 73 of the larger airports. 35 The hourly airport capacity utilization
data represents the number of arriving and departing flights an airport completes
divided by the maximum number it can safely complete based on the configuration
and weather conditions. The merger with this data reduced the final number of
directional airport-pairs to 2,530, with 5,481 route-carrier combinations, and
298,389 monthly observations (298,523 for our cancellation model). Even though
the number of directional airport-pairs covered in our final sample only accounted
for about 50 percent of what we had before the merger with the capacity utilization
data, these routes encompassed approximately 71 percent of the total number of
flights in the ASQP database.

Model Specification

The basic structure of our model is

                              𝑌𝑖𝑗𝑡 = 𝛼𝑋𝑗𝑡 + 𝛽𝑍𝑖𝑗𝑡 + 𝜀𝑡 + 𝑐𝑖𝑗 + 𝜇𝑖𝑗𝑡 (1)
where i indexes airline, j indexes route, and t indexes time. The dependent variable
𝑌𝑖𝑗𝑡 is a service quality variable measuring flight delays or cancellations for airline

33
   A direct flight means a non-stop flight, although technically, it also includes a flight with one stop but no change of
aircraft. This definition arises because the data in DB1B does not support distinguishing between a non-stop flight
versus a flight with one stop but no change of plane. Most passengers in DB1B are on direct flights.
34
   The merging process presented a challenge as the Aviation On-Time Performance Data is associated with the
operating carrier, while each observation in the DB1B data is tied to a combination of an operating carrier and a
marketing carrier. Further, we base the HHI calculation on the marketing carriers. Since about 50 percent of the
observations have an operating carrier that is different from the marketing carrier, we merged these two data sets by
operating carrier using the following rules: (1) for records that link multiple operating carriers to the same marketing
carrier, we simply merged by operating carrier. (2) For records that link multiple marketing carriers to the same
operating carrier, we identified the dominant marketing carrier, which for 99.5 percent of these observations was the
one with equal to or greater than 50 percent O&D passenger share and performed the merger by eliminating duplicate
records with the same operating carrier.
35
   FAA collects data on a total of 77 airports, but only 73 airports are within the lower 48 states. Merging with the data
on cancellations and on delays further reduced our coverage to 70 airports. The airport capacity data is not publicly
available. We gained access through FAA.


Exhibit B. Detailed Scope and Methodology
                                                                                                      18


i on route j at month t. We used two alternative delay definitions. 𝐷𝑒𝑙𝑎𝑦𝑖𝑗𝑡 is
airline i’s monthly average minutes of arrival delays for all flights on route j in
month t. 𝐿𝑎𝑡𝑒 𝐹𝑙𝑖𝑔ℎ𝑡𝑖𝑗𝑡 is the monthly percent of airline i’s flights on route j that
are at least 15 minutes late. 36 𝐶𝑎𝑛𝑐𝑒𝑙𝑖𝑗𝑡 is the monthly percent of airline i’s flights
on route j that are cancelled. We ran three separate estimations for each definition
of service quality.

The vector 𝑋𝑗𝑡 measures airline route or market competition. The vector 𝑍𝑖𝑗𝑡
contains other explanatory variables varying by route-carrier and time. 𝜀𝑡 is a
vector of yearly and quarterly time effects. In part, 𝜀𝑡 serves to absorb shifts in
macroeconomic variables, such as the unemployment rate, as they generally
exhibit time series variation but change little across panels. 𝑐𝑖𝑗 represents the
route-carrier heterogeneity. It captures the time invariant factors for each route-
carrier combination, such as distance and demographic elements.

In most of our estimations, 𝑋𝑗𝑡 is comprised of 𝐻𝐻𝐼𝑗𝑡 , the revenue-based
Hirschman-Herfindahl index on route j for month t, so equation (1) becomes

                         𝑌𝑖𝑗𝑡 = 𝛼𝐻𝐻𝐼𝑗𝑡 + 𝛽𝑍𝑖𝑗𝑡 + 𝜀𝑡 + 𝑐𝑖𝑗 + 𝜇𝑖𝑗𝑡 (2)

The endogeneity of HHI in empirical models of airline ticket prices is well
documented. We used lagged HHI to instrument for HHI in the current period.

We pursued different approaches to allow for nonlinearities in modeling the length
of flight delays versus the percent of late flights and percent of flights cancelled.
In the model of delay length, we added a quadratic term, 𝐻𝐻𝐼𝑗𝑡2 . In the models of
the percent of late and cancelled flights, the dependent variables are bounded by
zero and one, so those models are appropriately estimated using a fractional
response method. 37 Because this estimation method allows for variable marginal
effects, it also readily accommodates any nonlinearities.

The model of delay length was estimated using two-stage least-squares (2SLS). 38
As an alternative means of carrying out the instrumentation, we also used the
control function (CF) approach. We used correlated random effects (CRE) to
estimate the models of the percent of late and cancelled flights. We followed the
implementation in Papke and Wooldridge (2008). We applied the CRE approach
to the estimation of the models of the percent of late and cancelled flights in a
fractional probit framework. For those models, we corrected for the endogeneity

36
   BTS designates a flight late if it arrives at least 15 minutes past schedule.
37
   The application of panel data methods to fractional response models is explained in detail by Papke and
Wooldridge (2008).
38
   We predicted the values of the linear and quadratic forms of HHI separately in the first stage.


Exhibit B. Detailed Scope and Methodology
                                                                                    19


of HHI in the estimation by using the CF approach, as opposed to 2SLS, due to the
distinct advantages of applying CF over 2SLS in nonlinear models. 39 In all
estimations, we weighted each monthly observation for each route-carrier by the
number of flights captured by that monthly average.

Control variables
We categorized our control variables into weather factors, profitability measures,
and route-carrier specific covariates. We used heavy rain and freezing rain to
capture the weather events that would be most likely to cause airline delays and
cancellations. 𝐻𝑒𝑎𝑣𝑦 𝑅𝑎𝑖𝑛 𝑂𝑟𝑖𝑔𝑖𝑛𝑗𝑡 is the percent of days in month t at the origin
airport of route j with precipitation in excess of the 95th percentile for that airport
over the entire sample period. 𝐹𝑟𝑒𝑒𝑧𝑖𝑛𝑔 𝑅𝑎𝑖𝑛 𝑂𝑟𝑖𝑔𝑖𝑛𝑗𝑡 captures the percent of
days in month t with greater than 95th percentile precipitation and a temperature
below 32 degrees at the origin airport of route j. 𝐻𝑒𝑎𝑣𝑦 𝑅𝑎𝑖𝑛 𝐷𝑒𝑠𝑡𝑗𝑡 and
𝐹𝑟𝑒𝑒𝑧𝑖𝑛𝑔 𝑅𝑎𝑖𝑛 𝐷𝑒𝑠𝑡𝑗𝑡 similarly capture extreme weather at the destination airport
of route j.

We used airline load factors to measure profitability. 𝐿𝑜𝑎𝑑 𝐹𝑎𝑐𝑡𝑜𝑟𝑖𝑗𝑡 is airline i’s
load factor on route j in month t. Load factor is the total number of passengers
divided      by     the      total  number       of     seats.   𝐷𝑒𝑝𝑎𝑟𝑡 𝐸𝑎𝑟𝑙𝑦𝑖𝑗𝑡 ,
𝐷𝑒𝑝𝑎𝑟𝑡 6 𝑎𝑚 𝑡𝑜 12 𝑛𝑜𝑜𝑛𝑖𝑗𝑡 ,             𝐷𝑒𝑝𝑎𝑟𝑡 12 𝑛𝑜𝑜𝑛 𝑡𝑜 6 𝑝𝑚𝑖𝑗𝑡 ,            and
𝐷𝑒𝑝𝑎𝑟𝑡 6 𝑝𝑚 𝑡𝑜 12 𝑚𝑖𝑑𝑛𝑖𝑔ℎ𝑡𝑖𝑗𝑡 represent the monthly percent of route-carrier
specific total departures from midnight to 6 am, 6 am to 12 noon, 12 noon to 6 pm,
and 6 pm to midnight, respectively. 𝐷𝑒𝑝𝑎𝑟𝑡 𝐸𝑎𝑟𝑙𝑦𝑖𝑗𝑡 was our reference group. We
introduced these coefficients to capture the effect of cumulative delays, which
cause flights scheduled later in a day to be more likely to experience delays and
cancellations.

We adapted the congestion measure to the route-carrier level. The airport capacity
utilization data reports on the average level of congestion for the airport on an
hourly basis. We multiplied this information by the monthly average number of
flights for each route-carrier in each hourly interval. This produced a measure
allowing two airlines serving the same route to experience different congestion
levels at the same airport if one schedules more flights during the morning rush
while the other predominantly schedules flights in the afternoon. Accordingly
𝐶𝑜𝑛𝑔𝑒𝑠𝑡𝑖𝑜𝑛 𝑂𝑟𝑖𝑔𝑖𝑛𝑖𝑗𝑡 is the sum of the total number of actual flights divided by
the maximum allowable number of flights at the origination airport interacted with
airline i’s hourly departures on route j. Similarly 𝐶𝑜𝑛𝑔𝑒𝑠𝑡𝑖𝑜𝑛 𝐷𝑒𝑠𝑡𝑖𝑗𝑡 captures the
route-carrier specific capacity utilization level at the destination airport.

39
     These advantages are discussed in Wooldridge (2010a), pp. 126-128 and 589.


Exhibit B. Detailed Scope and Methodology
                                                                                                                   20


We controlled for the effects of airline hubbing with variables constructed using
DB1B data. Connections Originjt tracks the total number of locations to which
there are direct flights from the origin airport of route j in the quarter
containing month t. Connections Destjt measures the total number of locations
from which there are direct flights to the destination airport of route j in the
quarter containing month t.

We also included aircraft characteristics. We assembled information on aircraft
model for each route-carrier combination from T100 data. The seating capacity for
each model was identified using data from various aircraft manufacturer Web
sites. All aircraft types in our sample were grouped into five categories based on
the number of seats. We calculated the monthly average percent of aircraft within
each group for each route-carrier combination. 𝐴𝑖𝑟𝑐𝑟𝑎𝑓𝑡 𝐺𝑟𝑜𝑢𝑝 1𝑖𝑗𝑡 is the
monthly percent of all aircraft used by carrier i on route j comprised of turbo-prop
aircraft having up to 70 seats. 𝐴𝑖𝑟𝑐𝑟𝑎𝑓𝑡 𝐺𝑟𝑜𝑢𝑝 2𝑖𝑗𝑡 to 𝐴𝑖𝑟𝑐𝑟𝑎𝑓𝑡 𝐺𝑟𝑜𝑢𝑝 5𝑖𝑗𝑡 were
generated in similar fashion with higher group numbers representing greater
seating capacity. 40

Other controls included dummy variables for airport expansion and labor actions.
Specifically, one set of dummies indicates the completion of airport runway
projects in November 2008 at three major airports: Seattle-Tacoma (SEA),
Chicago O’Hare (ORD), and Washington Dulles (IAD). For example,
𝑆𝐸𝐴 𝑅𝑢𝑛𝑤𝑎𝑦 𝑂𝑟𝑖𝑔𝑖𝑛𝑗𝑡 is set to one starting November 2008 if the origination
airport on route j is the Seattle-Tacoma International Airport, and is zero
otherwise. 𝑆𝐸𝐴 𝑅𝑢𝑛𝑤𝑎𝑦 𝐷𝑒𝑠𝑡𝑗𝑡 similarly indexes the destination airport. The
other set of dummies, 𝐿𝑎𝑏𝑜𝑟 𝑆𝑡𝑟𝑖𝑘𝑒𝑠𝑖𝑡 , indicate periods of labor strikes and
slowdowns occurring at different airlines during our sample. 41

Results

Table B1 displays our regression results, with the standard errors shown in
parentheses. The results for the model of arrival delays incorporating the quadratic
term clearly indicate that the relationship between the level of competition and
minutes of delay is nonlinear. In the FE CF estimation, v2hat_lag1, the CF
indicator of the need to correct for the endogeneity of the competition measures, is
significant. It makes little difference whether we make the correction using 2SLS
or the CF.

40
   Group 2 includes regional jets with up to 70 seats. Group 3 contains regional jets with 70 to 100 seats. Group 4 is
made up of narrow body planes having more than 100 seats. Group 5 represents all wide body aircraft.
41
   We collected information on airline labor actions from sources such as the Wall Street Journal, the Chicago Tribune,
the Bureau of Labor Statistics, CNN, USA Today, NBC news, TribLive, and Highbeam. Four events were identified
during our sample, affecting: (1) Northwest Airlines from October to November 2005; (2) Northwest Airlines in
November 2006; (3) US Airways in April 2006; and (4) American Airlines from September to October 2012.


Exhibit B. Detailed Scope and Methodology
                                                                                                             21


To further examine the diminishing effects of marginal changes in competition on
average delay length, we generated estimates of the marginal effects at different
HHI levels. Specifically, we calculated the marginal effects at HHI levels from 0.1
through 0.9, in increments of 0.1, based on the FE CF estimation. Table B2
displays the results. The reported marginal effects of a .1 increase in HHI peak at
over 1 minute at HHI=0.1 and decline, as the level of HHI increases, to less than
16 seconds at HHI=.8. They are insignificant at HHI=0.9.

We also found the relationship between competition and airline service quality to
be nonlinear when using the flight cancellation rate as the measure of service
quality. Table B1 shows the results of estimating the cancellations model using
fractional probit with CRE and CF. The fractional probit approach allows us to
identify how the average partial effect (APE) changes with the level of HHI.
Table B2 presents the APEs evaluated from HHI=0.1 to HHI=0.9 at increments of
0.1. The size of the impact of an increase in competition on the cancellation rate
grows at an increasing rate with the level of HHI. Specifically, the APE grows
from .055 percent at HHI=0.1 to .073 percent at HHI=0.9. Further, the APE is
statistically significant at every HHI level.

The relationship between competition and the percent of late flights is only
significant at the 10 percent level in the fractional probit estimation, as Table B1
shows. Table B2 presents the APEs evaluated at different levels of HHI. They do
not change much with the level of HHI, but some are significant at the 5 percent
level.

Sensitivity Analyses

We tested the sensitivity of our results to the use of different lags of HHI in the
instrumentation process and to the use of alternative HHI measures. The other
HHI measures included indices of competition: (1) restricted to direct flights
connecting airport-pairs; and (2) between all direct and one-stop flights connecting
pairs of metropolitan statistical areas (MSA). 42 Lastly, since our panels were
unbalanced, we investigated the extent to which attrition and addition in our panel
were correlated with idiosyncratic shocks.

Table B3 displays the sensitivity test results derived using the different HHI
measures. We found that the relationship between delay length and competition in
a linear specification was robust to the instrument being lagged as much as
6 quarters. The relationship between the cancellation rate and competition, is also
robust to use of longer lags of the instrumental variable, except in the case of the

42
   Another set of specifications we tried used HHIs based on the number of passengers in each market. The results
differed little from those produced using revenue--based indices, so we only report on the revenue-based HHI
estimations.


Exhibit B. Detailed Scope and Methodology
                                                                                    22


MSA-pair HHI. In the model of the percent of late flights, the competition
measures remain relatively insignificant at all lags of the instrumental variable.
Use of the HHI based only on direct flights does not change the qualitative results
in any model. However, use of the HHI calculated for MSA-pairs does produce
different results: the HHI coefficient is insignificant in the cancellation rate model,
and is significant and negative in the model of the percent of late flights.

Wooldridge (2010b) suggests several alternative estimation strategies to address
selection bias in the nonlinear CRE framework, including using only those
observations for which a balanced panel is available, and performing a separate
estimation for each time period. The relationship between competition and
cancellation rates was the same or even stronger using these alternative estimation
strategies than in our other estimations.

References

Papke, L. E. and J. M. Wooldridge (2008) Panel Data Methods for Fractional
Response Variables with an Application to Test Pass Rates, Journal of
Econometrics, 145, 121-33.

Wooldridge, J.M. (2010a) Econometric Analysis of Cross Section and Panel Data,
Second Edition.

Wooldridge, J. M. (2010b) Correlated Random Effects Models with Unbalanced
Panels, working paper.




Exhibit B. Detailed Scope and Methodology
                                                                                      23


Table B1: Models of Minutes of Arrival Delays, Percent of
Cancelled Flights, and Percent of Late Flights
                            Average       Average       Average
                                                                       Average
   Dependent Variable       Length of     Length of     Percent of
                                                                       Percent of
                            Arrival       Arrival       Cancelled
                                                                       Late Flights
                            Delays        Delays        Flights
                                                         Fprobit CRE   Fprobit CRE
                            FE 2SLS       FE CF
                                                        CF             CF
                            (IV: 1 Q      (IV: 1 Q
                                                        (IV: 1 Q       (IV: 1 Q
                            lagged HHI)   lagged HHI)
                                                        lagged HHI)    lagged HHI)
                                                         APE           APE
   Revenue Based HHI        11.89***      10.17***      0.00656***     0.00863*

                            (3.395)       (2.403)       (0.00113)      (0.00440)
                        2
   Revenue Based HHI        -5.809**      -4.430**
                            (2.554)       (1.751)
   Heavy Rain Origin        20.32***      20.32***      0.0235***      0.213***

                            (0.458)       (0.462)       (0.00134)      (0.00491)

   Heavy Rain Dest          18.67***      18.67***      0.0226***      0.218***

                            (0.449)       (0.453)       (0.00134)      (0.00470)

   Freezing Rain Origin     31.68***      31.68***      0.0523***      0.366***

                            (0.588)       (0.594)       (0.00131)      (0.00613)

   Freezing Rain Dest       18.66***      18.66***      0.0500***      0.197***

                            (0.592)       (0.597)       (0.00131)      (0.00603)

   Load Factor              19.70***      19.70***      -0.0196***     0.193***

                            (0.372)       (0.375)       (0.000937)     (0.00408)

   Labor Strikes            7.970***      7.964***      0.00923***     0.107***

                            (0.359)       (0.362)       (0.000916)     (0.00443)
   Departure 6 am to 12                                                -0.0347***
                            -3.071***     -3.067***     0.00143
   noon
                            (0.511)       (0.516)       (0.00102)      (0.00616)
   Departure 12 noon to 6                                              0.0269***
                            1.816***      1.823***      0.00503***
   pm
                            (0.530)       (0.536)       (0.00107)      (0.00637)
   Departure 6 pm to 12                                                0.0914***
                            7.032***      7.036***      0.00510***
   midnight
                            (0.558)       (0.564)       (0.00113)      (0.00662)

   Connections Origin       0.0454***     0.0449***     -3.61e-05***   0.000429***

                            (0.00586)     (0.00591)     (1.26e-05)     (6.31e-05)

   Connections Dest         0.00626       0.00586       2.33e-05**     0.000107*

                            (0.00548)     (0.00553)     (1.17e-05)     (6.03e-05)

   Congestion Origin        10.14***      10.14***      -0.00318***    0.124***

                            (0.517)       (0.523)       (0.00116)      (0.00621)

   Congestion Dest          12.69***      12.69***      0.00116        0.149***

                            (0.588)       (0.593)       (0.00113)      (0.00668)



Exhibit B. Detailed Scope and Methodology
                                                                               24


   SEA Runway Origin       -2.479***   -2.479***   -0.00384**    -0.0545***

                           (0.519)     (0.520)     (0.00161)     (0.00796)

   ORD Runway Origin       -5.153***   -5.158***   -0.00720***   -0.0335***

                           (0.428)     (0.433)     (0.000504)    (0.00368)

   IAD Runway Origin       -2.603***   -2.597***   -0.00246***   -0.0234***

                           (0.595)     (0.607)     (0.000870)    (0.00612)

   SEA Runway Dest         -4.415***   -4.414***   -0.00673***   -0.0596***

                           (0.744)     (0.746)     (0.00160)     (0.00928)

   ORD Runway Dest         -6.840***   -6.845***   -0.00686***   -0.0440***

                           (0.403)     (0.408)     (0.000445)    (0.00344)

   IAD Runway Dest         -0.316      -0.311      -0.00343***   -0.00114

                           (0.572)     (0.579)     (0.000873)    (0.00600)

   Aircraft Type Group 3   0.0126      0.0143      -0.00410***   -0.00652

                           (0.388)     (0.391)     (0.000504)    (0.00415)

   Aircraft Type Group 4   0.176       0.177       -0.00579***   -0.00432

                           (0.426)     (0.429)     (0.000605)    (0.00461)

   Aircraft Type Group 5   0.672       0.666       -0.00786***   -0.00113

                           (0.862)     (0.870)     (0.00102)     (0.00841)

   Year 2007               0.0978      0.0976      0.00156***    0.00196*

                           (0.0922)    (0.0929)    (0.000199)    (0.00111)

   Year 2008               -2.478***   -2.481***   -0.00274***   -0.0286***

                           (0.0974)    (0.0977)    (0.000230)    (0.00112)

   Year 2009               -5.087***   -5.091***   -0.00700***   -0.0515***

                           (0.109)     (0.110)     (0.000261)    (0.00121)

   Year 2010               -6.088***   -6.092***   -0.00250***   -0.0591***

                           (0.142)     (0.144)     (0.000261)    (0.00148)

   Year 2011               -5.373***   -5.378***   -0.00104***   -0.0588***

                           (0.128)     (0.129)     (0.000263)    (0.00141)

   Year 2012               -6.732***   -6.737***   -0.00493***   -0.0757***

                           (0.151)     (0.152)     (0.000301)    (0.00171)

   Quarter 2               1.170***    1.171***    -0.00297***   0.00120**

                           (0.0536)    (0.0542)    (0.000153)    (0.000595)

   Quarter 3               0.715***    0.714***    -0.00272***   -0.00776***

                           (0.0603)    (0.0607)    (0.000164)    (0.000729)

   Quarter 4               -1.018***   -1.019***   -0.00507***   -0.0145***

                           (0.0408)    (0.0412)    (0.000150)    (0.000484)

   v2hat_lag1                          -4.058***   -0.0128***    -0.0194***

                                       (0.632)     (0.00105)     (0.00489)

   Observations            289,248     289,248     288,954       288,810

   R-squared               0.216       0.419




Exhibit B. Detailed Scope and Methodology
                                                                                                                25


      Route Carrier
                                     5,485
      Combinations
 Notes: *Significant at the 10 percent level. **Significant at the 5 percent level. ***Significant at the 1
 percent level.



 Table B2: Estimated HHI Marginal and Average Partial
 Effects (APE)
                                                     Percent of Cancelled
                Length of Delay                                                        Percent of Late Flights
                                                     Flights
                (Marginal Effects)                                                     (APEs)
                                                     (APEs)
                Revenue Based HHI                    Revenue Based HHI                 Revenue Based HHI
                (Direct and One-Stop                 (Direct and One-Stop              (Direct and One-Stop
                Flights)                             Flights)                          Flights)
HHI=0.1         10.73***                             0.00553***
                                                                                       0.00852**
                (2.906)                              (0.000792)
                                                                                       (0.0043)
HHI=0.2         9.569***                             0.00573***
                                                                                       0.00855**
                (2.409)                              (0.000857)
                                                                                       (0.00432)
HHI=0.3         8.407***                             0.00595***
                                                                                       0.00857**
                (1.920)                              (0.000926)
                                                                                       (0.00434)
HHI=0.4         7.245***                             0.00616***
                                                                                       0.00859**
                (1.450)                              (0.000997)
                                                                                       (0.00436)
HHI=0.5         6.083***                             0.00639***
                                                                                       0.00861**
                (1.023)                              (0.00107)
                                                                                       (0.00439)
HHI=0.6         4.921***                             0.00661***
                                                                                       0.00863*
                (0.719)                              (0.00115)
                                                                                       (0.00441)
HHI=0.7         3.759***                             0.00685***
                                                                                       0.00865*
                (0.719)                              (0.00123)
                                                                                       (0.00443)
HHI=0.8         2.597**                              0.00709***
                                                                                       0.00867*
                (1.022)                              (0.00131)
                                                                                       (0.00445)
HHI=0.9         1.436                                0.00734***
                                                                                       0.00869*
                (1.449)                             (0.00140)
                                                                                       (0.00447)
 Notes: *Significant at the 10 percent level. **Significant at the 5 percent level. ***Significant at the 1 percent
 level.




 Exhibit B. Detailed Scope and Methodology
                                                                                       26


  Table B3: Sensitivity Test HHI Estimates
                    Airport-Pair:             Airport-Pair:          MSA-Pair:
                    Revenue Based HHI         Revenue Based HHI      Revenue Based HHI
                    (Direct and One-Stop      (Direct Flight Only)   (Direct and One-Stop
                    Flights)                                         Flights)

                    Minutes of Delay Model
IV: 1 Quarter Lag   4.648***                  3.693***               4.457***
                    (0.661)                   (0.517)                (0.850)
IV: 2 Quarter Lag   5.767***                  5.142***               5.590***
                    (0.931)                   (0.741)                (1.165)
IV: 3 Quarter Lag   4.206***                  3.966***               3.006**
                    (1.264)                   (1.011)                (1.453)
IV: 4 Quarter Lag   4.881***                  5.362***               2.040
                    (1.611)                   (1.307)                (1.656)
IV: 5 Quarter Lag   5.901**                   6.992***               2.357
                    (2.617)                   (2.137)                (2.481)
IV: 6 Quarter Lag   13.89***                  14.70***               6.842*
                    (4.815)                   (4.153)                (3.742)

                    Percent of Cancelled Flight Model
IV: 1 Quarter Lag   0.00656***                0.00272***             0.000876
                    (0.00113)                 (0.000932)             (0.00108)
IV: 2 Quarter Lag   0.00661***                0.00282***             0.000812
                    (0.00117)                 (0.000964)             (0.00110)
IV: 3 Quarter Lag   0.00650***                0.00281***             0.000593
                    (0.00119)                 (0.000992)             (0.00112)
IV: 4 Quarter Lag   0.00639***                0.00275***             0.000656
                    (0.00121)                 (0.00101)              (0.00114)
IV: 5 Quarter Lag   0.00662***                0.00333***             0.00113
                    (0.00122)                 (0.00102)              (0.00118)
IV: 6 Quarter Lag   0.00646***                0.00341***             0.00128
                    (0.00121)                 (0.00101)              (0.00118)

                    Percent of Late Flight Model
IV: 1 Quarter Lag   0.00863*                  0.00256                -0.0198***
                    (0.00440)                 (0.00384)              (0.00494)
IV: 2 Quarter Lag   0.00788*                  0.00223                -0.0204***
                    (0.00455)                 (0.00399)              (0.00509)
IV: 3 Quarter Lag   0.00474                   -0.000623              -0.0223***
                    (0.00466)                 (0.00408)              (0.00519)
IV: 4 Quarter Lag   0.00396                   -0.000498              -0.0236***
                    (0.00472)                 (0.00415)              (0.00526)




  Exhibit B. Detailed Scope and Methodology
                                                                                                                 27


IV: 5 Quarter Lag    0.00392                           -0.000435                        -0.0244***
                     (0.00481)                         (0.00424)                        (0.00540)
IV: 6 Quarter Lag    0.00667                           0.00207                          -0.0228***
                     (0.00492)                         (0.00435)                        (0.00559
  Notes: *Significant at the 10 percent level. **Significant at the 5 percent level. ***Significant at the 1 percent
  level.




  Exhibit B. Detailed Scope and Methodology
                                                                    28


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT



Name                                    Title

Betty Krier                             Supervisory Economist/Program
                                        Director

Chia-Mei Liu                            Senior Economist (Lead)

Kang Hua Cao                            Senior Economist

Brian McNamara                          Senior Economist

Jerrod Sharpe                           Senior Economist

Tom Denomme                             Audit Expert

Susan Neill                             Writer/Editor

Joshua Ingber                           Economist Intern




Exhibit C. Major Contributors to This Report
